OIG Audit Report GR-30-02-004
Office of Community Oriented Policing Services Grants to the Christiansburg Police Department
Christiansburg, Virginia
Audit Report GR-30-02-004
March 2002
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Christiansburg Police Department (grantee) in Christiansburg, Virginia.  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $588,766 to hire eight new sworn police officers.
We reviewed the grantee's compliance with six essential grant conditions: budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, and community policing activities.  We found that the grantee complied with these essential grant conditions with the exception of financial reporting in conjunction with reimbursement requests.

The reported amounts on the Financial Status Reports (FSR) for the hiring grants were inaccurate, and no FSRs were prepared and submitted since April 2000.  The weaknesses are not dollar-related1.

Our results are discussed in detail in the Findings and Recommendations section of the report.  The audit objectives, scope and methodology appear in Appendix I.

Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.